No.
IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER THIEME — Petitioner
v.
STATE OF NEW JERSEY -- Respondent.

PROOF OF SERVICE
I, CHRISTOPHER THIEME, Petitioner, do swear and declare that on the date
undersigned, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on■■ each party to the above proceeding or . that party's counsel, and
on every other person required to be served, bv depositing an envelope
containing the above documents in the United States mail properlv addressed to
each of them and with first-class postage prepaid, or by delivery to a thirdpartv commercial carrier for delivery within 3 calendar days.
The name and addresses of those served are as follows:
ATTORNEY GENERAL OF NEW JERSEY
Department of Law and Public Safety
Post Office Box 85
Trenton, New Jersey 08625-0085
I declare under Denaltv of perjury that the foregoing is true and correct.
Executed on March 12, 2021.

CHRISTOPHER

L jBFQeT/ed

IEMH, Petitioner

mar

1 6 2021

SUPREEMEFCTOnRTLnRQK

